U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 1, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Whitaker v. United States, No. 20-6038
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 25,
2020. The government’s response is now due, after one extension, on December 16, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 15, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-6038
WHITAKER, DARIUS COTY
USA

DARIUS COTY WHITAKER
PRISONER ID# 63520-056
P.O. BOX 1009
WELCH, WV 24801

